TN

2311 Douglas Street Vs

* E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B na i ‘ contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-

VBS DISTRIBUTION, INC., a California corporation,
also known as VBS HOME SHOPPING, and
VBS TELEVISION, INC., a California corporation,

Petitioners,
Vv.
NUTRIVITA LABORATORIES, INC.,
a California corporation, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), | certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 7525 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 19th day of August, 2020.
| am duly authorized under the laws of the State of Nebraska to administer oaths.

GERERAL NOTARY-State of Nebraska Chi,
RENEE J. GOSS ¢ bee Ars &
My Comm. Exp. September §, 2023,

Notary Public Affiant

 

40062
